                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-14A                                   Office of Inspections                                       June 2014




                  Inspection of
    the Bureau of Arms Control, Verification,
                and Compliance




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Findings                                                           1
Context                                                                2
Leadership                                                             4
  Strategic Planning and Team Building                                 4
  Effectiveness of the 2010 Reorganization                             5
  Front Office Structure                                               6
Policy Implementation                                                  8
  Redistributing Workload                                              8
  Strengthening Global Arms Control and Transparency Measures          9
  Addressing Emerging and Regional Challenges                          9
  Expanding Missile Defense Cooperation                               10
  Increasing Governmentwide Support for Verification and Compliance   10
  Annual Compliance Report                                            11
Program Implementation                                                13
  Nuclear Risk Reduction Center                                       13
  Foreign Assistance                                                  16
  Contract Management                                                 16
Resource Management and Management Controls                           18
  Management Operations Overview                                      18
  Workforce Development and Succession Planning                       18
  Security Management                                                 20
List of Recommendations                                               22
Principal Officials                                                   24
Abbreviations                                                         25




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Findings
      The Bureau of Arms Control, Verification, and Compliance works productively with
       counterparts on issues ranging from arms control engagement with Russia to Syria’s
       compliance with its chemical weapons obligations and implementation of the New
       Strategic Arms Reduction Treaty.

      The bureau’s structure reflects the Cold War-era architecture of arms control and
       disarmament agreements focused on Russia and Europe. The bureau is not structured and
       staffed appropriately to lead engagement on arms control, strategic stability, extended
       deterrence, and compliance measures in East and South Asia.

      The Nuclear Risk Reduction Center may be unable to complete timely treaty notifications
       because it lacks 24-hour information management support, a functioning off-site backup
       location, and a network contingency plan. Inefficient staffing and support arrangements
       with the Bureau of Information Resource Management and internal leadership issues
       complicate management of its operations.

      Forty-eight percent of the bureau’s Civil Service employees will be eligible to retire in
       the next 5 years, the second-highest percentage in the Department of State. The bureau’s
       staff includes nationally prominent scientists; arms control negotiators; and nuclear,
       chemical, and biological weapons systems experts with highly specialized experience that
       is found in few other places in the Federal Government. Absent a plan to improve
       professional development and succession planning for the next generation of arms control
       experts, the bureau is at risk of losing national security expertise vital to its mission.

      The bureau has made improvements to the production process of the Annual Compliance
       Report, its main statutory report to Congress, but has not completed the report by the
       statutory deadline in the past 15 years. It needs to institutionalize improvements in the
       production process by distributing written guidance to bureau offices tasked with
       production of the report.

      The 2010 reorganization that created the Bureau of Arms Control, Verification, and
       Compliance reduced duplication and overlap with the Bureau of International Security
       and Nonproliferation in most areas. The decision to lodge arms control and verification
       and compliance responsibilities in the same bureau has proceeded without controversy in
       the Bureau of Arms Control, Verification, and Compliance. Some outside observers
       believe, however, that this decision could weaken verification and compliance activities.

      The classified annex to this report contains additional discussion of the bureau’s
       engagement with other agencies on classified and unclassified verification technology
       issues.

The inspection took place in Washington, DC, between January 6 and March 7, 2014.
Ambassador Pamela J. Slutz (team leader), Arne B. Baker (deputy team leader), Brett M. Fegley,
John D. Haynes, Barry J. Langevin, Christopher Mack, and Patricia A. Murphy conducted the
inspection.
                                       1
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        The mission of the Bureau of Arms Control, Verification, and Compliance (AVC) is to
enhance American security through the negotiation and implementation of effectively verifiable
and diligently enforced arms control and disarmament agreements and of missile defense
cooperation arrangements. AVC has led an intensified Governmentwide effort to translate into
practice the Administration’s top priorities in arms control, verification, and compliance, as laid
out in the President’s April 2009 Prague speech and other national policy documents.

        AVC priorities include the negotiation of new multilateral frameworks to advance the
President’s goals of moving toward a world without nuclear weapons and ensuring the protection
of the United States and its allies from nuclear attack. These goals include negotiation of further
reductions in strategic nuclear weapons and their delivery systems; negotiation of a fissile
material cut-off treaty; promotion of the Comprehensive Nuclear-Test-Ban Treaty; negotiation of
limitations on tactical, nondeployed, and nonstrategic nuclear weapons and their delivery
systems; and development of missile defense arrangements. AVC interacts with multilateral
security organizations and implements arms control and disarmament agreements through staff
assigned to four delegations and missions in Europe. Among other priorities, its work overseas
includes engaging in the destruction of Syria’s chemical weapons arsenal, working with allies on
missile defense, and developing agreements in new areas, such as space.

        The bureau serves as a primary interlocutor with the Russian Federation on arms control
agreements. Under the New Strategic Arms Reduction Treaty (“New START”), which AVC’s
Assistant Secretary negotiated and signed in 2010, the United States and Russia will, among
other things, reduce the number of strategic nuclear missile launchers by half. The international
climate for concluding additional arms control agreements is not favorable, and Russia’s
noncompliance with some of its treaty obligations remains a concern. Differences of opinion in
the Conference on Disarmament have stalled attempts to move forward with negotiation of a
fissile material cut-off treaty. The United States and other key countries have not ratified the
Comprehensive Nuclear-Test-Ban Treaty.

        In addition to arms control responsibilities, AVC is required by statute to report on the
compliance by other countries with their arms control agreements. The bureau prepares the
authoritative U.S. Government annual report on whether countries are in compliance with
international arms control agreements. The Assistant Secretary is the Department’s
representative to the intelligence community on matters relating to verification and compliance
and is required to report on the adequacy of interagency technical capabilities to verify treaty
obligations.

       Since the merger of the former Arms Control and Disarmament Agency with the
Department of State (Department) in 1999, AVC and its predecessor organizations have
undergone three reorganizations. The most recent reorganization in 2010 addressed lingering
overlap by placing all nonproliferation activities in the Bureau of International Security and
Nonproliferation (ISN) and merging arms control into the Bureau of Verification, Compliance,
and Implementation to create AVC. The 2010 reorganization reversed a 2000 decision that
divided arms control and verification and compliance functions among separate bureaus.


                                         2
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       The bureau’s budget includes $31.2 million in FY 2013 operating funds and $32 million
in FY 2014 requested foreign assistance funds. It employs 141 U.S. direct-hire employees
assigned to Washington, DC, and 4 overseas missions and delegations.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Leadership
         The Assistant Secretary is widely respected within and outside the Department for her
expertise in arms control, verification, and compliance. From 2009 to early 2011, she led
negotiations with the Russian Federation and spearheaded the Administration’s request for
ratification of New START. She has been dual-hatted as acting Under Secretary of State for
Arms Control and International Security since February 2012.1 AVC staff gives the Assistant
Secretary and the three deputy assistant secretaries positive reviews that compare favorably with
other bureaus’ front offices. However, surveys and interviews with AVC staff indicate that
opportunity exists for front office improvement in vision/goal setting, clarity, coordination,
feedback, problem solving, and communications, particularly in providing timely feedback and
debriefs of interagency and other senior-level meetings. Interviews with AVC staff also indicate
that while the front office leadership brings substantive depth and policy experience to the
bureau, it needs to devote more time and attention to day-to-day operations and managing the
bureau’s human and financial resources to meet current and future challenges. The OIG team
discussed corrective measures with the front office, such as encouraging the deputy assistant
secretaries to be more hands-on, providing more mentoring for mid-level officers, and having the
executive director or her representative regularly attend weekly AVC senior staff meetings.

        Several offices scored significantly below the bureau average for morale in OIG surveys.
Across the bureau, morale in general is lower than average among the cadre of entry- and mid-
level foreign affairs and science professionals—the next generation of negotiators and
verification experts whose talent the bureau needs to retain and develop. Entry- and mid-level
foreign affairs and science staff expressed frustration with a lack of meaningful work, career
development and promotion opportunities, and appreciation for their work within the bureau and
the wider Department. The OIG team counseled both office management and the front office on
corrective action, such as reassigning portfolios and delegating more responsibilities to staff.

Strategic Planning and Team Building

         AVC staff at all levels complained about stovepiping, defined as a reluctance to absorb
new information or take on new tasks as well as to share information, particularly among offices.
Breaking through this stovepiping and building a culture of interoffice teamwork will require
senior-level intervention and direction. More broadly, the bureau lacks an inclusive strategic
planning process and structure that can define the bureau’s goals, develop a strategy for
achieving the goals, and make decisions on financial and human resource allocations necessary
to pursue the strategy. The absence of such a process has contributed to officers working in
isolation on tasks that are seen as ends in themselves, without a full understanding of where they
fit into the bureau’s overarching mission.

        Although bureau leaders think broadly and deeply about the future, they are focused on
policy and dealing with daily crises. The portfolio of the chief of staff includes strategic planning
among several duties assigned to the position. Even though the chief of staff communicates
regularly with the Assistant Secretary and principal deputy assistant secretary when preparing

1
  During the inspection (February 6–March 7), Rose Gottemoeller served as the Assistant Secretary. She was sworn
in as Under Secretary of State for Arms Control and International Security on March 7, 2014.

                                            4
                               SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

mandatory resource reports and requests, no bureauwide process or structure exists, and many
AVC employees feel that they could contribute but are not consulted. Lacking is the integration
of mechanisms consistent with 3 Foreign Affairs Manual (FAM) 1214 leadership and
management principles, instituted in 2014, that would better allow office directors, foreign
affairs officers, and science and technology professionals in a collaborative and innovative team
approach.

        The OIG team discussed with the bureau’s leadership approaches to team building and
strategic planning, such as conducting an employee survey that would solicit feedback and
opinions on bureau priorities, policies, and programs; using short-duration working groups—
composed of action officers from stakeholder offices who are given specific terms of reference,
benchmarks, and regular opportunities to brief and receive feedback from the bureau’s
leadership—to develop alternative policy and program approaches; and establishing a dedicated
strategic planning unit and staff.

Recommendation 1: The Bureau of Arms Control, Verification, and Compliance should
formalize its strategic planning process to include establishing a strategic planning unit with
responsibility for setting priorities that reports to the Assistant Secretary, identifying emerging
issues, and recommending appropriate deployment of the bureau’s resources. (Action: AVC)

Effectiveness of the 2010 Reorganization

        The objectives of the 2010 reorganization of AVC, as notified to Congress, were to
centralize nonproliferation expertise in a single bureau and to place arms control side by side
with verification and compliance. The 2010 reorganization also addressed Government
Accountability Office findings that the 2005–06 reorganization had failed to achieve all four of
the objectives notified to Congress: enabling better focus on post-September 11 challenges,
combining related offices to reduce bureaucratic inefficiencies, reducing top-heavy management,
and eliminating overlap between the bureaus.

        Notably, the 2010 reorganization combined for the first time the functions of arms control
negotiation with treaty verification and compliance. In the past, these two functions were
organizationally separate. In 2000, Congress passed legislation requiring an arms control bureau
separate from the verification and compliance bureau. The Department’s proposal to combine the
two functions raised concerns among senior members of Congress regarding a clear wall of
separation between negotiators and verifiers to ensure the credibility of treaties and agreements
presented to the Senate for advice and consent. The Department argued that, by bringing the
arms control, verification, and compliance missions together in one bureau under one Assistant
Secretary, it could ensure that verification and compliance regimes are built into arms control
agreements from their inception and that compliance with such agreements is effectively
verified. The OIG team raised this issue with a variety of interagency interlocutors but heard no
complaints that the reorganization had weakened the verification function in AVC. However,
some members of Congress, influential nongovernmental organizations, and members of
academia continue to believe that the decision to combine the two functions could weaken the
verification and compliance functions by blurring the lines between officials who negotiate
agreements and those who verify them.


                                         5
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Biological Weapons Policy

       By and large, the 2010 reorganization achieved its objective of delineating the
responsibilities of AVC and ISN and reducing duplication and overlap. However,
counterproductive overlap remains in the area of biological weapons policy. ISN’s Biological
Policy Staff and AVC’s Office of Chemical and Biological Weapons have intersecting
responsibilities, especially with regard to the Biological Weapons Convention. The views of the
two bureaus on policy differ. Complicating matters, the FAM assigns the two bureaus similar, if
not overlapping, responsibilities,2 sometimes resulting in disagreements between the two staffs.
As a result, the United States is less effective in advancing its biological weapons policy agenda,
and the Department is less effective in the interagency community.

Recommendation 2: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of International Security and Nonproliferation, should develop a
policy paper, cleared at the deputy assistant secretary level, outlining the policy parameters of
bureau activities involving the Biological Weapons Convention. (Action: AVC, in coordination
with ISN)

Front Office Structure

        The front office has 21 employees, or 15 percent of the bureau’s total work force. This
staffing level compares unfavorably with other, similar functional bureaus, such as ISN, with
7 percent of its total staffing assigned to the front office. The Bureau of Oceans, International
Environmental, and Scientific Affairs is also at 7 percent.

        AVC has a chief of staff, a position not officially on the front office’s staffing pattern; the
incumbent reports to the director of the Office of Missile Defense and Space Policy. The chief of
staff has been assigned many tasks that either the principal deputy assistant secretary or the
executive office traditionally performs. As noted elsewhere in this report, the bureau could make
better use of the executive office director and her staff. Doing so would also enable the bureau to
consider eliminating the chief of staff function and freeing up the position for substantive work
in one of the offices. For example, monitoring the bureau’s travel budget and responding to
Departmentwide budget, contract performance, and other management-related taskings are
traditional functions of the executive office.

       The bureau has two Civil Service staff assistant positions and a Civil Service
management analyst position, as well as a Foreign Service special assistant position, all
responsible for managing various aspects of the bureau’s paper flow (taskings and clearances). In
general, the flow of paper (taskings) within the bureau and among the bureau and other parts of
the Department is managed in an ad hoc manner. Quality control of both the process and the
product is a persistent problem. No central authority enforces standards applied to all taskings,
regardless of whether the tasking originated inside or outside the bureau.

2
 The text of 1 FAM 453.3 (2) states that ISN’s Office of Missile, Biological, and Chemical Nonproliferation
“develops and implements policies and programs to impede, roll back, and eliminate the proliferation of chemical
and biological weapons,” and 1 FAM 444.1(1) states that AVC’s Office of Chemical and Biological Weapons
Affairs “implements efforts to impede and roll back the threat of chemical and biological weapons.”

                                             6
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The bureau’s leadership is considering implementing new procedures. The OIG team
discussed options for improving the quality of the process and the product, including the use of
standardized templates for preparing and clearing papers, use of the Everest system to assign and
track all taskers, realignment of the portfolios of the Civil Service staff involved in managing
paper flow to ensure consistency of responsibility and grade structure, and charging the special
assistant with managing all paper flowing into and out of the bureau.

        Within the bureau’s front office are three permanent positions and one consultant position
responsible for handling public affairs, public diplomacy, press, legislative affairs, and outreach
to the public and nongovernmental organizations, as well as support functions for offices that
report to the Under Secretary of State for Arms Control and Disarmament. Each of these
positions reports to a different supervisor, sometimes resulting in uncoordinated work plans and
missed opportunities.

       These entities are, by and large, engaged in public outreach and research. The bureau’s
leadership is considering establishing a new office, which would report to the Assistant Secretary
to consolidate bureauwide strategic communications and outreach, and reprogramming
appropriate front office positions to this office.

         In addition to the 21 permanent, full-time employees, AVC employs 16 consultants (all
limited-appointment Special Government Employees) on its rolls, 11 of whom also are attached
to the front office. This compares unfavorably with the number of front office consultants in
comparable functional bureaus: ISN (4) and the Bureau of Oceans, International Environmental,
and Scientific Affairs (1). The bureau has committed in its FY 2015 Bureau Resource Request to
reducing its expenses with regard to consultants by $100,000. It also is looking at ways to better
integrate the front office consultants into the work of the line offices through colocation in
offices and attendance at regular office staff meetings.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy Implementation
         AVC’s policy priorities, as outlined in the bureau’s FY 2015–17 Functional Bureau
Strategy, include three main areas: strengthening global arms control and transparency measures,
expanding missile defense cooperation, and increasing governmentwide support for verification
activities. The main specific objectives in support of these overall areas include:

      Implementation of the New START agreement with the Russian Federation to limit
       deployed nuclear warheads and strategic delivery vehicles and seek to include all nuclear
       weapons states in this endeavor;
      Negotiation of limitations on tactical and no-deployed or nonstrategic weapons;
      Negotiation of limitations on fissile materials (i.e., a fissile material cut-off treaty);
      Strengthening the Nuclear Non-Proliferation Treaty;
      Protection of the United States and its allies from nuclear attack through extended missile
       defense cooperation agreements; and
      Sustained research and development investment in the technologies and national
       technical means necessary to verify compliance with existing and future arms control
       agreements.

     In OIG’s survey of offices in the Department and in other agencies that work with AVC,
other agency personnel gave AVC staff members high marks for their technical expertise and
experience in managing arms control and verification policy. However, many AVC staff
members told the OIG team that they do not believe other bureaus and offices within the
Department understand, avail themselves of, or appreciate the work of the bureau. The division
of duties and responsibilities in AVC offices is generally clear to outside offices. AVC personnel
work professionally to reach consensus on often complex issues, and AVC employees regularly
lead interagency and Department deliberations on the bureau’s issues. With respect to the
overseas representatives and commissioners, these offices indicated that AVC consistently issues
timely, clear instructions in the form of front channel cables and advice on policy issues that
arise during negotiating sessions.

Redistributing Workload

        AVC’s offices are structured to bring resources and activities to bear on the key functions
of verification and compliance with existing agreements and on negotiation of new agreements.
Four of the bureau’s seven offices are structured around supporting activities related to specific
treaties. These offices are small, with between 10 and 15 staff members, and each has a director
who focuses on the treaties within that office’s purview. AVC fields five treaty commissioners or
representatives overseas who are responsible for leading U.S. delegations to international arms
control and disarmament organizations based in Geneva, Vienna, and The Hague and for staffing
the U.S.-Russia Special Verification Commission (for the Intermediate-Range Nuclear Forces
Agreement) and Bilateral Consultative Commission (for New START). The Office of Missile
Defense and Space Policy deals exclusively with national security space policy and has the lead
for missile defense cooperation.

        Although AVC offices are well organized to manage current and near-term arms control,
missile defense, and verification policies and issues, the OIG team found an uneven distribution
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

of workload. Employees in some of these offices, such as the Office of Euro-Atlantic Security
Affairs and the Office of Missile Defense and Space Policy, report that they had consistently
moderate to heavy workloads, while employees in other offices said they often did not have
enough work. This problem of a lack of work for bureau staff echoes one identified in the 2004
OIG inspection of the former Bureau of Arms Control. Though the verification workload is
constant and consistent, the arms control workload tends to be cyclical, event driven, and
associated with periodic meetings of arms control and disarmament organizations. As previously
mentioned, a strategic plan that identifies workload imbalances and reallocates portfolios and
positions accordingly would help assure that the bureau’s human and financial resources are
being managed effectively to achieve the bureau’s priorities.

Strengthening Global Arms Control and Transparency Measures

        The bureau has made progress on some aspects of the current Administration’s arms
control agenda. The Assistant Secretary played a main role as head of delegation in the
negotiation, signing, and ratification of the New START agreement in 2010, an identified
Administration priority. AVC has also made progress in the areas of missile defense, particularly
in negotiating the basing agreements with Poland, Romania, and Turkey, and in discussions with
Gulf Cooperation Council countries, Japan, and Korea on missile defense arrangements. The
bureau has not, however, been able to achieve the Administration’s goals of negotiating a fissile
materials cut-off treaty, reviving the Conventional Armed Forces in Europe Treaty, and
negotiating limitations on nonstrategic nuclear weapons.

         The lack of progress on several of the Administration’s arms control priorities reflects
political realities and circumstances outside AVC’s control, rather than a lack of coordinated
strategy by the bureau. Offices in the Department and in other agencies credit AVC, specifically
the Assistant Secretary, for consistently pressing forward with Administration priorities. They
note that international and domestic political realities have limited progress in spite of AVC’s
efforts. In discussing the impasse on negotiating a fissile materials cut-off treaty at the
Conference on Disarmament in 2012, the Assistant Secretary noted that the United States was
working hard to overcome concerns but, “the road will remain blocked until all members of the
Conference on Disarmament are convinced that commencing negotiations is in their national
interest, or at least, not harmful to those interests.”

Addressing Emerging and Regional Challenges

         With respect to new and emerging arms control and transparency challenges, the bureau’s
space policy section of the Office of Missile Defense and Space Policy is leading the U.S.
Government’s engagement to promote the long-term sustainability and security of the outer
space environment. Currently, a duty of one position (in the Office of Strategic Affairs) is to
support the Deputy Coordinator for Cyber Issues on the emerging issue of transnational cyber
stability.

       The bureau’s FY 2015–17 Functional Bureau Strategy states that “the strategic shift by
the [United States] to the Asia-Pacific region will create new opportunities and requirements for
engagement on arms control, transparency, and compliance measures in the region,” but does not
elaborate a comprehensive strategy for, inter alia, engaging bilaterally with China, supporting the
Administration’s policy and discussions with North Korea, and reassuring our allies in the region
                                        9
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

through strategic security and missile defense arrangements. Within the bureau, the strategic
engagement section of the Office of Strategic Affairs is tasked with developing stable strategic
relationships and leading bilateral strategic nuclear dialogues with China, India, and Pakistan.
But the office’s engagement in bilateral strategic dialogue with China has been limited—and is
nonexistent in the cases of Pakistan and India. One of the section’s officers backstops a nuclear
arms control transparency and confidence building “glossary” working group chaired by China
and involving the five permanent members of the United Nations Security Council. This officer
will be retiring within the year, leaving the bureau without a fluent Mandarin speaker with China
area expertise. Another officer in the section has relevant Pakistan area expertise, but the office
as a whole has not had the travel funding to engage in bilateral dialogues with Pakistan or India.
Instead, the same officer has leveraged his expertise and experience to garner a co-chairmanship
for the bureau in Department of Defense-sponsored discussions, and to support the bureau’s
missile defense cooperation dialogue, with allies Japan and South Korea.

       AVC’s leadership recognizes these emerging and regional challenges and is considering
measures to reorient the bureau’s focus, to realign portfolios and positions, and to recruit and
develop the expertise necessary to manage these challenges.

Recommendation 3: The Bureau of Arms Control, Verification, and Compliance should
develop and implement a plan to strengthen its capacity to lead on emerging and regional arms
control, strategic stability, extended deterrence, transparency, and compliance challenges in East
Asia, South Asia, and the Middle East. (Action: AVC)

Expanding Missile Defense Cooperation

         Protecting the United States, its deployed military forces, and its allies from the threat of
ballistic missile attack is a critical national security priority. The United States enjoys broad
support for missile defense and missile defense cooperation within North Atlantic Treaty
Organization and its individual member nations, the Gulf Cooperation Council, and with key
Asia-Pacific allies. In the past 4 years, AVC has negotiated and implemented the European
Phased Adaptive Approach to provide protection to allies of the North Atlantic Treaty
Organization and deployed U.S. forces in Europe. The bureau is leading efforts to reach
agreement with Russia on missile defense cooperation and to negotiate and implement Phased
Adaptive Approaches with allies in the Near East and East Asia and Pacific regions.

Increasing Governmentwide Support for Verification and Compliance

        Verification and compliance responsibilities include reviewing intelligence and reporting
on compliance issues; working with staff from the Defense Threat Reduction Agency, the
Department of Energy, and other personnel engaged in inspection activities; preparing reports to
Congress; and assessing whether proposed arms control agreements are verifiable. AVC did not
retain a separate verification and compliance office within the bureau after the 2010
reorganization but instead retained these duties in existing offices. The Office of Verification and
Transparency Technologies focuses exclusively on ensuring the adequacy of existing verification
technologies and developing new technologies that could be applied to existing and new
agreements. The classified annex to this report contains discussion of AVC’s engagement with
the interagency community on verification technology.

                                        10
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Annual Compliance Report

        AVC is responsible for assessing the compliance of other countries with their arms
control, nonproliferation, and disarmament agreements or commitments and providing its
assessments to Congress in a series of annual reports.3 The largest of the four annual compliance
reports—the President’s Annual Report to Congress on Adherence to and Compliance with Arms
Control, Nonproliferation, and Disarmament Agreements and Commitments (“the Annual
Compliance Report”)—is due by April 15, and the other three reports are due by January 31.
AVC offices draft the reports, clear them through the Department and interagency process, and
submit the reports under cover of a letter from the Secretary of State to Congress in classified
and unclassified versions.

        Historically, the bureau has submitted these reports late or not at all. The Department
issued only three Annual Compliance reports—in 2003, 2005, and 2010—during the period from
January 2000 to January 2009. Since 2010, AVC has submitted the Annual Compliance Report
each year, albeit late, though the other three reports were all submitted on time in 2013. Since
2010, AVC has made progress on streamlining the drafting and clearing process for the Annual
Compliance Report in order to meet the April 15 deadline. It has started the drafting process
earlier and reduced the text in the report by including only essential information: the 2005
unclassified report was 112 pages long; the 2013 report was 45 pages.

        However, challenges remain and the report was delivered nearly 3 months late in 2013.
Because the report covers the period of the preceding calendar year, final information for the
report is often not available until early January. A cumbersome clearance process, which
includes giving the intelligence community two clearance opportunities and affording the
National Security Council the right of final review, can result in substantive revisions at each
clearance stage, particularly where opinions or interpretations differ. Failure by staff in some
Department bureaus and offices and in other agencies to clear in a timely fashion because of
other priorities was cited as another major cause of delay by bureau employees involved in the
production of the report. The report contains 14 sections; delay in clearing 1 section can delay
the entire report.

         The OIG team reviewed the report drafting and clearance process to determine whether
AVC could have done more to ensure the report was submitted by its April 15 due date.
Interagency verification working groups or similar entities exist for most if not all of the bilateral
and multilateral agreements and facilitate timely production of these sections of the report. More
systematic use of standing interagency compliance working groups to develop draft report text
late in the calendar year could smooth the clearance process by identifying and reaching
consensus on areas of disagreement. Sections of the report that have regularly meeting
interagency verification working groups are generally cleared in a timely manner. For example,
the New START Verification Working Group has been successful in identifying and resolving

3
 The four primary reports to Congress are the President’s Annual Report to Congress on Adherence to and
Compliance with Arms Control, Nonproliferation, and Disarmament Agreements and Commitments (the Annual
Compliance Report); the President’s Annual Report to Congress on Compliance with the Chemical Weapons
Convention (the 10 (C) Report); the President’s Annual Report to Congress on Compliance with the Conventional
Armed Forces in Europe Flank Document (the 5 (C) Report); and the President’s Annual Report to Congress on the
New Strategic Arms Reduction Treaty.

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

interagency differences of opinion or interpretation so that the annual New START Compliance
Report has been regularly submitted by its January 31 deadline.

Recommendation 4: The Bureau of Arms Control, Verification, and Compliance should issue
formal guidance on the preparation of the Annual Compliance Report to bureau drafters and
editors that incorporates best practices in report production. (Action: AVC)




                                      12
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Program Implementation
Nuclear Risk Reduction Center

        The Nuclear Risk Reduction Center (NRRC) is responsible for facilitating the exchange
of government-to-government information required by bilateral and multilateral nuclear,
chemical, and conventional arms control treaties. The office consists of a 24-hour watch center
staffed by Foreign Service, Civil Service, and technical support personnel. The NRRC
information technology division manages the communication networks that support
implementation of arms control and other security agreements. Division employees operate
government-to-government communications links (GGCL) with Russia, Belarus, Kazakhstan,
and Ukraine and also support networks linked to multilateral and domestic security offices.

Morale and Leadership

        Out of 21 current and former NRRC employees interviewed, 15 highlighted poor morale
as their most significant concern. The majority of personal questionnaires received by the OIG
team from NRRC staff members also highlight this issue. Although the difficulties associated
with long-term shift work on the NRRC watch contribute to morale issues, the single greatest
reason employees identified for this problem was poor leadership. Out of 21 employees
interviewed, 17 described a work environment rife with insults, intimidation, bullying,
favoritism, and micromanagement. During the inspection, the bureau’s leadership took corrective
actions to address office leadership and morale concerns.

Staffing

        About one-third of the NRRC’s positions are supervisory. The last reorganization of the
NRRC watch, completed in 2012, produced four levels of supervision in the office and seven
between nonsupervisory staff in the NRRC and the Assistant Secretary. The NRRC has a total of
21 full-time positions, including 15 Civil Service, 5 Foreign Service, and 1 Department of
Defense detailee. Eleven employees work as watch officers, and 10 work in the staff section. In
addition, the office has two when actually employed (WAE) employees to augment the watch
center staff.

       Promotions and reclassifications of watch officers to staff positions, regular Foreign
Service officer rotations, and difficulties recruiting qualified replacements make staffing of the
watch center an ongoing challenge. To address this challenge, the NRRC leadership has relied
heavily on WAE watch officers to fill staffing gaps. The two WAE watch officers worked 897
hours in 2012 and 1,268 hours in 2013, at a cost to the Department of $93,000. The level of
WAE use in the NRRC is an indication that the watch center may not be appropriately staffed.

        Nine NRRC employees indicated that the office has too many supervisory layers, and
some interviewees said they believed that supervisory staff does not have enough to do.
According to 1 FAM 014.5, the addition of nonessential supervisory layers can increase
problems in an office, affecting communications, workflow, and morale. Given the morale
problems in the office, extensive use of WAEs, and the significant number of supervisory layers
in the NRRC, the office needs a more streamlined structure.

                                        13
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Human Resources, should complete an organizational
assessment of the Nuclear Risk Reduction Center, with the objective of implementing the
appropriate supervisor-to-employee ratio for the office. (Action: AVC, in coordination with
DGHR)

Leave Administration

        Several NRRC employees complained about a lack of transparency with regard to the
office leave policy. Specifically, staff members were unsure how much leave was actually being
charged each time they requested leave, and some indicated that the rules for leave are applied
inconsistently. The OIG team’s document review of NRRC leave records identified additional
concerns. A study of pay periods 20–26 in 2013 revealed significant problems with leave and
time and attendance administration for all seven pay periods reviewed. The shortcomings
included the following:

      Several instances in which leave requests were not entered into time and attendance
       records;
      Multiple leave forms that were unsigned by supervisors;
      Multiple leave forms without dates or approvals indicated;
      Pen-and-ink changes to total leave—both increases and decreases in leave amounts—
       with no indication that employees were informed of changes; and
      Five instances in which supervisors signed leave forms for employees with no indication
       on the forms that employees were involved.

        The state of these records lends credibility to staff concerns about the charging of leave in
the NRRC and highlights the importance of further scrutiny of leave and time and attendance
procedures for the office. The current haphazard procedures for the accounting of pay and leave
are not consistent with 4 FAM 038.1 and 4 FAM 038.2-3 and have negatively affected staff
morale.

Recommendation 6: The Bureau of Arms Control, Verification, and Compliance should
complete an internal review, culminating in a written report, of leave and time and attendance
records for the Nuclear Risk Reduction Center office for the period from March 2013 through
March 2014 and take corrective action, if warranted. (Action: AVC)

Network Operations

        The recently completed NRRC network modernization project significantly improved the
NRRC’s network infrastructure, security, and notification processing capabilities. However, the
division faces information technology personnel management challenges and network
vulnerabilities arising from its staffing structure.




                                        14
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Government-to-Government Communications Links

         NRRC communications officers currently have no alternate work site with backup GGCL
connectivity and operational work space during emergency situations. The Bureau of
Information Resource Management’s NRRC branch, which is responsible for the GGCLs, has
explored options for establishing backup connectivity but has not made any decisions on a final
course of action. National Security Decision Directive 301 states that the NRRC shall consist of
appropriate office space and associated communications space with an alternate communications
facility to serve as the backup to the primary terminal. Not maintaining a functional alternate
work site is contrary to National Security Decision Directive 301 and puts the United States at
risk of being out of compliance with communications requirements stated in several treaties and
agreements, including New START.

Recommendation 7: The Bureau of Information Resource Management should establish a fully
operational alternate work site for the Nuclear Risk Reduction Center’s government-to-
government communications links. (Action: IRM)

        The NRRC does not have a documented contingency plan for its GGCLs and has not
tested any contingency plans related to those links. This situation exists primarily because IRM
has not established a functional alternate work site with GGCL connectivity. This condition is in
conflict with 5 FAM 851, which states that every information system in the Department must
have a contingency plan and that the plan must be updated and tested annually. Without an
established and regularly tested contingency plan for the GGCLs, the NRRC cannot be certain of
GGCL network reliability in emergency situations.

Recommendation 8: The Bureau of Information Resource Management should document and
annually test a contingency plan for its government-to-government communications links.
(Action: IRM)

Nuclear Risk Reduction Center’s Information Technology Network Support and Staffing
Structure

        The NRRC is at risk of being unable to complete treaty notifications required under
National Security Decision 301, because it lacks 24-hour information technology support for its
network. AVC has only two positions dedicated to support the NRRC network, and one of these
has been vacant for the past 4 years. Although IRM communications officers work in the NRRC
24 hours a day, supporting the NRRC network is outside the scope of their job responsibilities. If
connectivity or processing issues that require physical troubleshooting occur during non-duty
hours, the NRRC may be unable to fulfill treaty notification duties important to national security.
Some treaties and international agreements have messaging and notification requirements of
1 hour and 3 hours, respectively.

        Operational support under the existing arrangement with IRM is administratively
inefficient. The division director is charged with managing the operations and maintenance of the
NRRC’s network connections but only has operational and administrative control of half of that
network and the personnel who operate it. Responsibility for the other half, which includes the
GGCLs and the six communications officers who operate those links, falls to IRM. The NRRC
information technology division director does not have the ability to effect needed changes to the
                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

operations and maintenance of the GGCLs because of this split in responsibility. IRM and AVC
have not concluded a memorandum of understanding detailing their respective responsibilities in
recent years. In the absence of such an agreement identifying roles and responsibilities for
GGCL maintenance and network support, the bureau is at risk of not being able to complete
notifications required by treaties and agreements. Noncompliance with treaty obligations can
have significant foreign policy and national security repercussions.

Recommendation 9: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Information Resource Management, should prepare a
memorandum of understanding on support to the Nuclear Risk Reduction Center network.
(Action: AVC, in coordination with IRM)

Foreign Assistance

         AVC provides $32 million in dues and assessments to the Comprehensive Nuclear-Test-
Ban Treaty Organization (CTBTO) under the terms of the 1996 United Nations resolution that
established the Preparatory Committee for the CTBTO. The United States has signed but not
ratified the Comprehensive Nuclear-Test-Ban Treaty. Assistance provided to the CTBTO is not
subject to direct oversight by the Department. However, through its representative to the CTBTO
in Vienna, AVC monitors the CTBTO’s progress in meeting operational goals and expending
funds. AVC also donates a voluntary in-kind contribution under the terms of an annual exchange
of letters with the CTBTO. For FY 2014, this contribution amounted to
$3.67 million and is used to fund work, mainly by the Department of Energy, the U.S.
Geological Service, and the Department of Defense, to support the CTBTO’s International
Monitoring System, a worldwide network of seismic monitoring stations designed to detect
nuclear explosions. AVC monitors other agencies’ use of its funds through quarterly reports
provided by the agencies servicing the interagency agreements.

Contract Management

        The bureau’s FY 2013 financial plan included $8.63 million for contracted and other
services. Contracts funded by the bureau include those overseen by the NRRC ($1.34 million),
the Office of Verification and Transparency Technology ($1.77 million), and the External
Research Board ($700,000). The OIG team conducted judgmental samples of five bureau
contracts to identify whether the Office of Acquisition Management had designated a trained
contracting officer’s representative. The review found that in all five cases, Level II contracting
officer’s representatives were assigned to contracts the bureau oversees, as required.

External Research Board

        The Under Secretary for Arms Control and International Security is authorized to fund
research, development, and other studies pertaining to arms control and disarmament. Staff
members in AVC, ISN, and the Bureau of Political-Military Affairs submit proposals for
research projects, which the bureau’s External Research Board typically reviews near the end of
the fiscal year. As constituted, the acquisition planning process for proposals that the External
Research Board funds does not ensure full and open competition. In FY 2013, the Board funded
10 proposals, valued at $700,000. Sole source justifications were used to select all 10 proposals.
Contracting files contained sole source justifications and price negotiation memoranda
                                        16
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

documenting these decisions. In some cases, funded research proposals likely could have been
selected through competitive processes with advance acquisition planning. For example, funded
research proposals included technical workshops and technology conferences, which a range of
commercial vendors likely could execute. Through use of a broad area announcement or similar
mechanism, competition could be sought for proposals. Federal Acquisition Regulation 7.102(a)
(2) requires agencies to use procedures to develop acquisition plans to ensure full and open
competition to the maximum extent practicable. In the absence of acquisition planning, the U.S.
Government may not be selecting projects that provide the best value.

Recommendation 10: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Administration, should institute acquisition planning procedures
to provide for full and open competition to the maximum extent practicable for External
Research Board-funded projects. (Action: AVC, in coordination with A)




                                      17
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management and Management Controls
Management Operations Overview

       The Office of the Executive Director, housed in the ISN bureau, provides common
support services to the three Under Secretary of State for Arms Control and International
Security bureaus. These services include budgeting, human resources, general services,
information technology, and security.

        The executive office received above average customer service scores from AVC bureau
employees in most services. However, AVC personnel raised concerns about the lack of an
administrative orientation and check-in process for new employees and of transparency with
respect to travel funding. Similarly, customers expressed dissatisfaction with the customer
service that the Bureau of Information Resource Management’s centralized help desk provides.
Likewise, customers cited poor service and inconsistency in interpreting travel rules and
regulations from the Department’s travel provider, Carlson Wagonlit. They also expressed
dissatisfaction with travel regulations governing classes of travel, contract fares, and permissible
upgrades. To address these concerns and to educate employees, the travel section of the
executive office organized a bureauwide meeting with transportation and travel management
officials from the Bureau of Administration.

        Further, bureauwide and strategic resource management in AVC may not be getting the
level of attention required. For example, some traditional executive office functions, such as
oversight of the bureau’s management controls programs have been delegated to AVC’s chief of
staff. The executive director’s office operates relatively independently of senior leadership and
plays a negligible role in the bureau’s planning processes.

        Other issues pertaining to the role and performance of the combined executive office are
addressed in the report of the ISN bureau inspection, conducted concurrently with this
inspection. In summary, recommendations in the ISN report that also pertain to AVC include
conducting a customer service survey and implementing an Equal Employment Opportunity
program.

Workforce Development and Succession Planning

        According to the Bureau of Human Resources, AVC has the second-highest percentage
of employees in the Department who will be eligible to retire over the next 5 years—48 percent
of the workforce. Since 2002, the Government Accountability Office has identified strategic
management of human capital as a Governmentwide high-risk area, citing in particular the risk
that a potential wave of employee retirements could produce gaps in the Government’s capacity
to address effectively agency challenges. The bureau’s Civil Service employees include 17
physical scientists and biologists; nationally recognized experts in nuclear, chemical, and
biological weapons systems; and multilateral negotiators. The particular combination of skills
and technical expertise necessary to prepare professionals for arms control and verification and
compliance responsibilities can take years to develop, according to observers outside the bureau.



                                        18
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        AVC recognizes that the bureau faces a critical challenge in recruiting, developing, and
retaining the next generation of arms control and verification experts. The bureau has taken some
steps to address the issue: it has arranged for some rotational and temporary duty assignments or
fellowships that provide varied experiences and has set up a speaker’s program to bring in
outside experts on arms control topics, for example. The bureau supports employee training
requests. However, these steps are not sufficient to build the next generation of arms control and
verification experts and leaders. The bureau needs a comprehensive approach to workforce
management that incorporates identifying expected hiring needs, recruiting personnel, and
attending to the professional development of its workforce, consistent with the Office of
Personnel Management’s Workforce Planning Model.

        OIG’s interviews with staff hired in the past 5 years found dissatisfaction with the state of
professional development in the bureau. Employees expressed the need for a formal newcomers
orientation program; improved top-down and bottom-up communication; assignment of more
meaningful work, including leading projects, regular opportunities for interagency and
Department details, formation of crosscutting working groups to focus staff in different offices
on bureau priorities, and more opportunities to work on delegations and in overseas missions.

        The bureau has not developed a training continuum to assist new employees in
identifying opportunities for professional development. As a result, new employees may not be
aware of useful courses, such as the Foreign Service Institute’s 1-week course on arms control
and disarmament and the 1-week Civil Service orientation course. The bureau does not currently
have an orientation program or handbook for new employees. AVC can take advantage of tools
such as “ABCs of Orientation” posted on the Department’s Diplopedia, which provides a
template for an orientation handout covering much of what new employees need to know. Other
practices for professional development include courtesy calls on senior bureau leaders, use of
individual training and development plans, travel on delegations for mid-level and junior
employees, expanded monthly staff meetings open to all personnel, and regular meetings
between mid-level and junior employees and the bureau’s senior leadership. In sum, the bureau
needs a deliberate and structured program to recruit new personnel and develop them for future
responsibilities. In the absence of such a program, expertise essential to U.S. national security
may be lost, harming the Department’s ability to carry out its arms control and verification
responsibilities.

Recommendation 11: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Office of the Under Secretary of State for Arms Control and International
Security, should create a comprehensive, multiyear workforce development plan. (Action: AVC,
in coordination with T)

Multilateral Diplomacy and Bureau Civil Service Employees

        Perhaps no area is more important to the future capabilities of the bureau than
development of multilateral expertise among AVC’s Civil Service employees. As recently as
1995, the former Arms Control and Disarmament Agency maintained an office in Geneva with
18 direct-hire authorized positions, reflecting the importance of arms control issues during that
period. The dearth of ongoing negotiations, combined with staffing reductions to AVC’s
overseas offices and cuts to the bureau’s travel budget, limits the ability of AVC’s Civil Service
employees to learn how their bureau’s business is conducted overseas. Originally, AVC
                                        19
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

delegations included Civil Service positions, which is where many of the current generation of
arms control leaders learned the art of multilateral negotiation. For example, the current
Permanent Representative to the Organization for the Prevention of Chemical Weapons, a career
Civil Service employee, served a tour in that organization earlier in his career. These permanent
assignment opportunities are not currently available to AVC’s Civil Service employees.

        AVC funds delegations in Vienna, The Hague, and Geneva, but the staff-level positions
on the delegations have, over recent decades, all been converted to Foreign Service positions.
The Quadrennial Diplomacy and Development Review called for expanding opportunities for
Civil Service employees to gain experience overseas that would enhance their effectiveness in
Washington. The Office of the Legal Adviser maintains two overseas Civil Service positions in
Geneva to provide such multilateral experience for its employees, for example. Although AVC
successfully advocated for the creation of one temporary position at Embassy London, it has not
been successful in creating permanent overseas opportunities for its Civil Service employees that
will equip them with multilateral negotiation experience.

Recommendation 12: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of European and Eurasian Affairs and the Bureau of Human
Resources, should create or convert mid-level positions at the bureau’s overseas delegations and
missions for Civil Service employees. (Action: AVC, in coordination with EUR and DGHR)

Foreign Service Arms Control Expertise

        The bureau has eight domestic Foreign Service positions, of which five are NRRC
positions, one is a special assistant, one is a deputy assistant secretary, and one is in a policy
office. AVC reports that it has had difficulty in the past attracting Foreign Service officers to
serve in the bureau and in developing arms control expertise among Foreign Service officers
assigned to its overseas delegations. The inspectors suggested that AVC leadership discuss
options for increasing Foreign Service positions in the bureau with the Bureau of Human
Resources, including the possibility of creating temporary
1-year Foreign Service tours (“Y tours”) to attract more candidates to serve in the bureau.

Security Management

         The bureau’s personnel and physical security programs are generally in conformance
with Department security and intelligence community directives. The Bureau of Diplomatic
Security reported no security infractions or violations for AVC employees in the past 2 years.
The Office of the Executive Director provides certain security services to all three Under
Secretary of State for Arms Control and International Security bureaus. Discussion of security
issues applicable to AVC is contained in the ISN inspection report prepared concurrently with
this report. In summary, recommendations in the ISN report that pertain to AVC include
completing memoranda of agreement with the Bureau of Diplomatic Security on bureau security
officer support, defining specific duties and responsibilities and clarifying the chain of reporting
for all security officers, training all principal unit security officers in unit security practices,
conducting annual security awareness refresher training for all bureau employees, and posting
bureau emergency action plans on bureau intranet sites with a link to the Bureau of
Administration’s Office of Emergency Management SharePoint site.

                                        20
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The classified annex to this report contains discussion of AVC’s administration of its
sensitive compartmented information-level security programs.




                                       21
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Arms Control, Verification, and Compliance should
formalize its strategic planning process to include establishing a strategic planning unit with
responsibility for setting priorities that reports to the Assistant Secretary, identifying emerging
issues, and recommending appropriate deployment of the bureau’s resources. (Action: AVC)

Recommendation 2: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of International Security and Nonproliferation, should develop a
policy paper, cleared at the deputy assistant secretary level, outlining the policy parameters of
bureau activities involving the Biological Weapons Convention. (Action: AVC, in coordination
with ISN)

Recommendation 3: The Bureau of Arms Control, Verification, and Compliance should
develop and implement a plan to strengthen its capacity to lead on emerging and regional arms
control, strategic stability, extended deterrence, transparency, and compliance challenges in East
Asia, South Asia, and the Middle East. (Action: AVC)

Recommendation 4: The Bureau of Arms Control, Verification, and Compliance should issue
formal guidance on the preparation of the Annual Compliance Report to bureau drafters and
editors that incorporates best practices in report production. (Action: AVC)

Recommendation 5: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Human Resources, should complete an organizational
assessment of the Nuclear Risk Reduction Center, with the objective of implementing the
appropriate supervisor-to-employee ratio for the office. (Action: AVC, in coordination with
DGHR)

Recommendation 6: The Bureau of Arms Control, Verification, and Compliance should
complete an internal review, culminating in a written report, of leave and time and attendance
records for the Nuclear Risk Reduction Center office for the period from March 2013 through
March 2014 and take corrective action, if warranted. (Action: AVC)

Recommendation 7: The Bureau of Information Resource Management should establish a
fully operational alternate work site for the Nuclear Risk Reduction Center’s government-to-
government communications links. (Action: IRM)

Recommendation 8: The Bureau of Information Resource Management should document and
annually test a contingency plan for its government-to-government communications links.
(Action: IRM)

Recommendation 9: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Information Resource Management, should prepare a
memorandum of understanding on support to the Nuclear Risk Reduction Center network.
(Action: AVC, in coordination with IRM)

Recommendation 10: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of Administration, should institute acquisition planning procedures

                                        22
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

to provide for full and open competition to the maximum extent practicable for External
Research Board-funded projects. (Action: AVC, in coordination with A)

Recommendation 11: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Office of the Under Secretary of State for Arms Control and International
Security, should create a comprehensive, multiyear workforce development plan. (Action: AVC,
in coordination with T)

Recommendation 12: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of European and Eurasian Affairs and the Bureau of Human
Resources, should create or convert mid-level positions at the bureau’s overseas delegations and
missions for Civil Service employees. (Action: AVC, in coordination with EUR and DGHR)




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                   Name      Arrival Date
Assistant Secretary                                    Rose Gottemoeller          04/2009
Principal Deputy Assistant Secretary                         Anita Friedt         08/2012
Deputy Assistant Secretary                                 Greg Delawie           08/2012
Deputy Assistant Secretary                                                        10/2009
                                                              Frank Rose
Office Directors
Nuclear Risk Reduction Center                             Ned Williams           02/2007
Office of Chemical and Biological Weapons Affairs          Kenneth Ward          01/2011
Office of Euro-Atlantic Security Affairs                   Richard Davis         03/1999
Office of the Executive Director                         Sonna Stampone          08/2012
Office of Missile Defense and Space Policy                David Hoppler          10/2006
Office of Multilateral and Nuclear Affairs              Jeffrey Eberhardt        05/2008
Office of Strategic Affairs                                   Jerry Taylor       08/2000
Office of Verification and Transparency Technologies     Brian Nordmann          10/2006




                                      24
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AVC              Bureau of Arms Control, Verification, and Compliance

CTBTO            Comprehensive Nuclear-Test-Ban Treaty Organization

Department       U.S. Department of State

FAM              Foreign Affairs Manual

GGCL             Government-to-government communication links

ISN              Bureau of International Security and Nonproliferation

New START        New Strategic Arms Reduction Treaty

NRRC             Nuclear Risk Reduction Center

OIG              Office of Inspector General

WAE              When actually employed




                            25
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
